No. 19-518

_____________
COLORADO DEPARTMENT OF STATE,
Petitioner,
v.
MICHAEL BACA, POLLY BACA, AND ROBERT NEMANICH,
Respondents.
_____________
On Petition for a Writ of Certiorari to the
U.S. Court of Appeals for the Tenth Circuit
_____________
MOTION FOR LEAVE TO FILE AMICUS
BRIEF AND AMICUS BRIEF OF THOMAS E.
WEAVER IN SUPPORT OF RESPONDENTS
_____________

Thomas E. Weaver
PO Box 1056
Bremerton, WA 98337
(360)792-9345
tweaver@tomweaverlaw.com
*Counsel of Record

i
Motion for Leave to File Amicus Brief
COMES NOW, Thomas E. Weaver, and moves this
Court for leave to appear as amicus curiae in
support of Respondents.
Thomas E. Weaver is a lawyer living and
practicing in the State of Washington and licensed
to practice in this Court. Mr. Weaver has argued
over 350 appellate cases in the Washington
appellate courts and the Ninth Circuit Court of
Appeals and has been granted leave by the
Washington Supreme Court to appear as amicus
curiae in at least twelve cases. Mr. Weaver cowrote the Petition for Certiorari in McLemore v.
Shoreline, 19-202, certiorari pending in this Court.
Mr. Weaver also has a significant interest in
American political history and is currently
researching and writing a book on the history of the
Electoral College. Consistent with Rule 37, this
brief brings to this Court’s attention relevant
historical information not already brought to its
attention by the parties that will assist in its
decision. Mr. Weaver has no financial interest or
any other interest in the outcome of this case other
than presenting this Court with factually accurate
textual and historical information relevant to the
Questions Presented.
Respondent Michael Baca has filed with this
Court
Blanket
Consent
to
all
amicus
briefs. Petitioner has not filed blanket consent,
necessitating a motion.

ii

Respectfully submitted,

Thomas E. Weaver
Thomas E. Weaver
PO Box 1056
Bremerton, WA 98337
(360)792-9345
tweaver@tomweaverlaw.com
*Counsel of Record

NOVEMBER 7, 2019

iii
Table of Contents
Page
Motion for Leave to File Amicus Brief

i

Table of Contents

iii

Table of Authorities

iv

Interest of the Amicus

1

Summary of Argument

2

Argument

3

2. The United States Supreme Court
should grant certiorari to the second
Question Presented by the Petition for
Writ of Certiorari and reach the
merits of this important issue

3

3. This Court should affrirm the Tenth
Circuit and acknoledge the historical
role of independent electors

8

Conclusion

20

iv
Table of Authorities
Page(s)
Cases
Arizona State Legislature v. Arizona Independent
Redistricting Commission, 135 S.Ct. 2652, 2678,
192 L.Ed.2d 704 (2015) ...................................... 20
Bush v. Gore, 531 U.S. 98, 121 S.Ct. 525, 148
L.Ed.2d 388 (2000) ............................................... 7
Bush v. Palm Beach County Canvassing Board, 531
U.S. 70, 75, 121 S.Ct. 471, 148 L.Ed.2d 366
(2000) .................................................................... 7
INS v. Chadha, 462 U.S. 919, 103 S.Ct. 2764, 77
L.Ed.2d 317 (1983) ............................................. 20
Ray v. Blair, 343 U.S. 214, 72 S.Ct. 654, 96 L.Ed.
894 (1952) ......................................................... 4, 9
Congressional Records
Congressional Globe, 42nd Congress, 2rd Session,
February 12, 1873 .......................................... 5, 15
Congressional Record, 90th Congress, Volume 115,
Part 1, January 6, 1969 ........................... 6, 17, 18
Niles Weekly Register, Speech to Senate, Volume
74 ........................................................................ 13
Register of Debates, 24th Congress, February 8,
1837 .................................................................... 15

v
Constitutional Provisions
Amendment XIV, §2 ............................................... 10
Amendment XXIII.................................................. 10
Amendment XXIV .................................................. 10
Article 1, §7 ............................................................ 11
Article II, §1 .................................................... passim
Twelfth Amendment .............................................. 19
Newspapers and Periodicals
Chicago Tribune, “Why Roberts Did It,” July 2,
2012 ...................................................................... 8
The Salina Journal, “It’s Official; Bush Elected
President,” December 20, 1988 .......................... 19
Other Authorities
Federalist 68 ........................................................ 4, 9
J. Story, Commentaries .................................... 13, 14

1
Interest of the Amicus
Thomas E. Weaver1 is a lawyer living and
practicing in the State of Washington and licensed
to practice in this Court. Mr. Weaver has argued
over 350 appellate cases in the Washington
appellate courts and the Ninth Circuit Court of
Appeals and has been granted leave by the
Washington Supreme Court to appear as amicus
curiae in at least twelve cases. Mr. Weaver cowrote the Petition for Certiorari in McLemore v.
Shoreline, 19-202, certiorari pending in this Court.
Mr. Weaver also has a significant interest in
American political history and is currently
researching and writing a book on the history of the
Electoral College. Consistent with Rule 37, this
brief brings to this Court’s attention relevant
historical information not already brought to its
attention by the parties that will assist in its
decision. Mr. Weaver has no financial interest or
any other interest in the outcome of this case other
than presenting this Court with factually accurate
historical information relevant to the Questions
Presented.

No counsel for any party authored this brief in whole or in
part and no person or entity made a monetary contribution
specifically for the preparation or submission of this brief. No
person other than Amicus Curiae made a monetary
contribution to its preparation or submission. The
Respondents have filed blanket consent. Petitioner consent is
not known. This Brief is being filed earlier than 10 days
before the due date with a Motion to File.

1

2
Summary of Argument
The second Question Presented by the
pending Petition for Certiorari presents an
important question of constitutional interpretation
never before directly addressed by this Court: the
legality of so-called “faithless,” or independent,
electors. The case asks whether an elector, having
been duly chosen by a State as an elector in the
“manner as the Legislature thereof may direct” as
required by Article II, §1, and having exercised his
or her “vote by ballot for President and VicePresident” as required by the Twelfth Amendment,
may then be removed as an elector and replaced by
another elector?
Amicus makes two arguments. First, the
issue presented is an important issue for which this
Court should grant certiorari. The Court has a
rare opportunity with the pending case to answer
this important constitutional question divorced
from an active political controversy.
Second, the text, history and, and practice of
the Electoral College over the past two-and-a-half
centuries supports the position that electors are
lawfully permitted to exercise independent
judgment in voting for the President and VicePresident, and frequently do. In one instance, the
election of 1872, Congress ruled that three electors
who failed to exercise independent judgment
forfeited their votes. Every time Congress has
taken up the issue of limiting elector discretion,
either by congressional action or proposed

3
constitutional amendment, it has declined to act.
This Court should acknowledge and affirm this
history.
Argument
1. The United States Supreme Court
should grant certiorari to the second
Question Presented by the Petition
for Writ of Certiorari and reach the
merits of this important issue.
Although amicus believes the Tenth Circuit
decision in this case should be affirmed, amicus
also agrees with the petitioner that the current
case presents an excellent vehicle to address for the
first time the legality of electors exercising
independent judgment in voting. This Court should
grant certiorari as to the second Question
Presented2 and affirm.

The Petition for Certiorari raises two Questions Presented.
In the first Question Presented, Petitioner argues Respondent
Michael Baca lacks standing to sue. Amicus believes this
Court should deny certiorari as to the first Question
Presented or, in the alternative, affirm the finding of standing
for the reasons outlined in the Tenth Circuit decision. For the
reasons set out in this brief, this Petition presents a rare and
important question related to independent electors that
should be decided on the merits.

2

4
Although so-called “faithless” electors3 have
existed since the beginning of the republic, this
Court has never directly addressed the legality of
their actions. The most important case to discuss
the issue, Ray v. Blair, dealt with the collateral
issue of whether a state may lawfully require
electors to take an oath or pledge, not what should
happen if that pledge were violated. Ray v. Blair,
343 U.S. 214, 72 S.Ct. 654, 96 L.Ed. 894 (1952).
Notwithstanding the fact that the legality of
electoral independence was not squarely addressed
by Ray v. Blair, the dissenters took it upon
themselves to reach that issue, saying, “No one
faithful to our history can deny that the plan
originally contemplated, what is implicit in its text,
that electors would be free agents, to exercise an
independent and nonpartisan judgment as to the
men best qualified for the Nation's highest offices.”
Ray at 232 (Justice Jackson, dissenting), citing
Federalist 68.
Petitioner argues the issue of electoral
independence is an issue of “profound importance
to the Nation” and one that should “be decided by
The pejorative term “faithless elector” has been used for
many decades to indicate electors who have failed to vote in
accordance with their oath or pledge. In the aftermath of the
general Election of 2016, there were calls by some people to
try and change the election results and prevent Donald
Trump from receiving a majority of elector votes. Proponents
of this idea started using the more approbatory term
“Hamilton electors,” a reference to Hamilton’s Federalist 68.
Amicus prefers the more neutral title “independent elector”
and that term will be used throughout this Brief unless the
context requires otherwise.

3

5
this Court now, not in the heat of a close
presidential election.” Petition for Certiorari, 36.
Amicus agrees this issue should be decided divorced
from pending election results, and this Petition
presents such an opportunity.
As set out in more detail below, Congress has
twice argued the issue of whether to allow or
disallow votes cast by independent electors. In
both debates, the participants expressed relief that
the results of their debate would not have any
tangible effect on the election. In the first debate,
following the election of 1872, Congress debated
whether to allow or disallow three Electoral College
votes cast for Horace Greeley, a man who died after
the general election but before the Electoral College
vote. President Grant’s reelection was never in
doubt. During the debate, New York Senator
Roscoe Conkling, a major voice in late nineteenth
century politics, argued the votes should be counted
because the counting of the votes was “ministerial
merely, and this question being independent of the
question of the effect of the votes or the count.”
Congressional Globe, 42nd Congress, 2rd Session,
February 12, 1873, 1285. Likewise, Senator John
Scott of Pennsylvania argued that the votes for
Horace Greeley should be counted, “postponing the
question of the legal effect of votes cast for a man
who shall appear to have been dead at the time
they were cast, until the whole vote shall come to
be counted.” Id. In the opinion of these senators, it
was unnecessary to reach the merits of whether
electors should be allowed to vote for a dead man
and what to do if a dead man won the election,
given that President Grant’s reelection was secure.

6
What effect, if any, the election of a dead man
might have should be left for another day.
Likewise, following the Election of 1968,
Congress adjourned for two hours to debate
whether to allow a single electoral vote for George
Wallace from a North Carolina elector. Ultimately,
the vote was allowed to stand, but in large part
because President Nixon’s election was guaranteed.
As Representative Charles Jonas put it,
“Fortunately
we
can
debate
this
issue
dispassionately and objectively because the result
of the election in the Electoral College will not be
affected regardless of the outcome of the contest
today.” Congressional Record, 90th Congress,
Volume 115, Part 1, January 6, 1969, 147.
What is significant about both the 1873 and
1969 debates is that the election of Presidents
Grant and Nixon were never in doubt. It is not
difficult, however, to envision a scenario where
independent electors have a tangible effect on the
final outcome. In the Election of 2000, George W.
Bush won the Electoral College vote against Al
Gore 271 to 266. If just three independent electors
had switched their votes, the final outcome would
have been reversed.
This Court’s experience in 2000 should also
act as a cautionary tale. The general election was
held on November 7, 2000 with Bush as the
apparent winner in Florida. On November 16, the
Florida Democratic Party and Gore filed suit in
Leon County alleging a variety of election
irregularities. On November 17, the trial court

7
denied relief.
On November 21, the Florida
Supreme Court reversed and expanded the time for
a manual recount of the vote. On December 4, this
Court reversed and remanded, commenting on the
need for “expedition requisite for the controversy.”
Bush v. Palm Beach County Canvassing Board, 531
U.S. 70, 75, 121 S.Ct. 471, 148 L.Ed.2d 366 (2000).
On November 26, the Florida Elections Canvassing
Commission certified Bush to be the winner. Gore
again sued, alleging election fraud in three
counties. A judge in Leon County held a two day
trial starting on December 2 and issued its oral
decision denying relief on December 4. Four days
later, on December 8, the Florida Supreme Court
reversed and ordered 9000 votes in Miami-Dade
County be recounted by hand. This Court granted
certiorari on December 9 and reversed on December
12. Bush v. Gore, 531 U.S. 98, 121 S.Ct. 525, 148
L.Ed.2d 388 (2000).
While this Court’s decision on December 12,
2000 decided with finality the legal controversy
before it, it was not without some significant
damage to the reputation of the Court. Two trial
court decisions, two Florida Supreme Court
decisions, and two United States Supreme Court
decisions in the span of twenty-three days is highly
unusual in American jurisprudence and many
criticize the haste with which this Court worked.
On addition to the haste, critics have also pointed
out the politically charged atmosphere in which the
decision was made. As one newspaper put it twelve
years after the decision, “More recently, however,
few decisions have occasioned more bitterness and
rancor than Bush v. Gore, a 5-4 decision split along

8
ideological lines. It was seen by many (principally,
of course, on the left) as a political act disguised as
jurisprudence and designed to alter the course of
the single most consequential political act of a
democracy — the election of a president.” Chicago
Tribune, “Why Roberts Did It,” July 2, 2012. The
time to decide difficult election issues is not in the
middle of an election controversy, but, to
paraphrase Representative Jonas, when the result
of the election will not be affected and
dispassionate and objective discourse can prevail.
Because the question is now before the Court
divorced from an active political controversy, this
Court should grant certiorari to the second
Question Presented of the Petition.
2. This Court should affirm the Tenth
Circuit
and
acknowledge
the
historical
role
of
independent
electors.
Throughout its Petition, Petitioner relies
heavily on what it characterizes as “longstanding
historical practice” to support its position that
states may prohibit independent electors from
voting their conscience. Petition for Certiorari, 28.
But while the Petition for Certiorari contains
detailed historical data from the early years of the
republic to the passage of the Twelfth Amendment,
it contains little historical data after 1804. In fact,
as this amicus brief will demonstrate, independent
electors have a rich history that extends well past
1804 and continues into the present. Further,
while amicus agrees that the history of the
Electoral College is important to this analysis, he

9
disagrees with the conclusion that that history
allows states to replace electors who do not vote in
accordance with their oath. As Justice Jackson put
it, no one “faithful to our history can deny that the
plan originally contemplated, what is implicit in its
text, that electors would be free agents.” Ray v.
Blair at 232 (Justice Jackson, dissenting).
In reviewing the historical record of
independent electors, three conclusions can be
reached. First, a fair reading of the text, history,
and practice of the Electoral College since the
beginning of the republic leads to the conclusion
that electors lawfully can and often do exercise
independent discretion in casting their votes.
Second, the existence of the Electoral College and
the ability of independent electors to circumvent
the will of the voters has been heavily criticized by
prominent public figures of every political
persuasion for over two centuries. Third, despite
this persistent criticism, every attempt to eliminate
or significantly modify the Electoral College, either
by
congressional
action
or
constitutional
amendment, has failed. This Court should not
circumvent that history.
Despite Alexander Hamilton’s claim in
Federalist 68 that that the Electoral College is
“almost the only part of the system, of any
consequence, which has escaped without severe
censure,” the Electoral College has suffered from
persistent and frequently withering criticism
almost from the outset. Fundamental flaws in the
system exposed by the Election of 1800 forced a
major retooling of the system with the Twelfth

10
Amendment in 1804. The Electoral College has
been subsequently amended three other times, in
Amendment XIV, §2, Amendment XXIII, and
Amendment XXIV, but each of these amendments
only brought minor changes. In addition, major
revisions to the Electoral College system were
proposed to Congress in 1826; during the
Reconstruction Era, when at least three
constitutional amendments were proposed; and in
the period following the World War II, when four
separate constitutional amendments passed either
the House or the Senate but failed in the other
chamber. Each of these efforts to eliminate or
make major modifications to the Electoral College
system proved unsuccessful, and the fundamental
Electoral College system remains essentially
unchanged since 1804.
Criticisms of the Electoral College generally
fall into three categories: (1) it fails to elect the
president by direct vote of the people; (2) it is an
unnecessary vestige of antebellum America where
compromise with the slave holding states was
required; and (3) the power of electors to vote
independently threatens to undermine the
democratically elected winners of the election.
While the first two of these criticisms lie outside
the scope of the pending Petition, the latter
criticism is directly implicated by the Petition.
The text of the Electoral College clause of the
1787 Constitution supports the position that
electors are to exercise independent judgment in
exercising their vote for President, without regard
to external factors. The clause, which is found in

11
three paragraphs of Article II, §1, is at once the
longest and most detailed of all the clauses in the
Constitution and the most vague. While other
clauses set forth detailed requirements for choosing
Representatives
and
Senators
and
their
qualifications, the language regarding electors
states they are to be appointed by each state “in
such manner as the Legislature thereof may
direct.” But on one point the clause is clear: the
role of the elector is to “vote by Ballot for two
persons” for president. In the three paragraphs
that make up the Electoral College clause, the word
“vote” (or “votes” or “voted”) appears eleven times
and the word “Ballot” (capitalized in the original)
appears three times. This proliferation of the word
“vote” is repeated in the Twelfth Amendment,
where the word is used twelve times, and begins,
“The Electors shall meet in their respective states
and vote by ballot for President and VicePresident.” Excluding Article II, §1, the word
“vote” appears only five other times in the body of
the 1787 Constitution, and each time clearly refers
to a person exercising independent judgment.
Article 1, §3 provides that each Senator shall have
one vote (as opposed to voting jointly as a state),
but the Vice-President shall have no vote except in
the case of a tie. Article 1, §7 provides that laws
shall be decided on votes of yeas and nays, the
names of those voting for and against the law shall
be recorded, and the vote presented to the
President.
This textual analysis supports the
position that electors are to exercise independent
judgment in voting.

12
That Alexander Hamilton expected electors
to exercise independent judgment is clear from his
oft-quoted Federalist 68, where he described the
qualities of the men he expected to act as electors
as “men most capable of analyzing the qualities
adapted to the station, and acting under
circumstances favorable to deliberation, and to a
judicious combination of all the reasons and
inducements which were proper to govern their
choice. A small number of persons, selected by their
fellow-citizens from the general mass, will be most
likely to possess the information and discernment
requisite to such complicated investigations.”
In the beginning, all electors exercised
independent judgment in voting. In the Election of
1788, George Washington was famously the only
president to receive the unanimous support of each
of the 69 voting electors. But that only tells part of
the story. Because each elector was required
pursuant to Article II, §1 to vote twice for
president, the electors scattered their second votes
across eleven candidates from six different states.
Alexander Hamilton successfully steered the
majority of electors into voting for John Adams,
with John Jay coming in a distant third place, but
the remaining electors distributed their votes
among a variety of prominent statesmen and
favorite sons. In total, ten men, not including
Washington and Adams, received electoral votes,
including two men who received one vote each.
Thirty-two years later in 1820, New Hampshire
Elector William Plumer, who was pledged to vote
for James Monroe but cast his vote instead for John
Quincey Adams, allegedly did so in order to prevent

13
a unanimous vote for Monroe and to preserve
President Washington’s record of being the only
President to receive the unanimous support of the
electors. In doing so, he became arguably the most
famous “faithless elector” in American history and
no controversy was raised by this vote.
After the contested Election of 1824, which
was decided by the House of Representatives after
no candidate achieved an electoral majority,
Congress created a joint committee chaired by
Senator Thomas Hart Benton of Missouri, a highly
respected and influential Senator in the early
Nineteenth Century, to investigate the possibility
of amending the Constitution to modify or
eliminate the Electoral College. Speaking in 1826,
Senator
Benton
explained
the
original
understanding of the role of electors, “It was the
intention of the constitution that these electors
should be an independent body of men, chosen by
the people from among themselves, on account of
their superior virtue, discernment and information,
and that this select body should be left to make the
election according to their own will, without the
slightest control from the body of the people.” Niles
Weekly Register, Speech to Senate, Volume 74,
338.
By the time Justice Joseph Story wrote his
highly
influential
Commentaries
on
the
Constitution, he noted what he considered a
disturbing trend by state legislatures to bind the
votes of electors, something he considered a
subversion of the original intent. Writing in 1833,
Justice Story said, “It is notorious that the electors

14
are not chosen with reference to particular
candidates, and are silently pledged to vote for
them. Nay, upon some occasions the electors
publicly pledge themselves to vote for a particular
person; and this, in effect, the whole foundation of
the system, so elaborately constructed, is subverted.
. . So that nothing is left to the electors after their
[state legislature’s] choice but to register votes
which are already pledged; and an exercise of
independent judgment would be treated as a
political usurpation, dishonorable to the individual,
and a fraud upon his constituents.” J. Story,
Commentaries, §1463 (emphasis added). In sum,
these important voices from the ratification debate
and early Nineteenth Century are clear evidence
that the original meaning of the word “vote,” as
used in both the 1787 Constitution and the Twelfth
Amendment, contemplated the use of independent
judgment by the electors.
There is only one election where independent
voters have affected the outcome of the election,
albeit only temporarily. While Martin Van Buren
easily won the 1836 election, his choice for VicePresident, Ricard Johnson, failed to achieve a
majority of the electoral vote. Virginia’s twentythree electors opposed Johnson’s election as VicePresident because he was openly involved in a
sexual relationship with a slave of mixed race.
Ignoring their pledge to vote for both Van Buren
and Johnson, the Virginia coalition voted for
Senator William Smith for Vice-President instead.
As a result, no candidate carried a majority and,
pursuant to the Twelfth Amendment, the election
was decided by the Senate, where Johnson was

15
promptly chosen Vice-President on the first ballot
by a vote of 33 to 16. Register of Debates, 24th
Congress, February 8, 1837, 738-39.
As noted earlier, Congress has twice engaged
in a major debate over the role of independent
electors. But those two debates arose in markedly
different circumstances. The first arose in the
aftermath of the 1872 election. In the November
general election, Republicans Ulysses Grant and
Henry Wilson easily won over their Democratic
rivals, Horace Greeley and Benjamin Brown. Had
things gone smoothly, the total electoral vote
should have been 300 to 80. But things did not go
smoothly. Relevant to this Petition, on November
29, 1872, just days before the date on which the
electors were expected to vote, Greeley died,
leaving his 80 electors without a candidate.
Despite the fact the Democratic electors had all
pledged their vote to Greeley, fourteen electors
chose not to vote at all and the rest gave their votes
to five different men, including three Georgians
who voted for Greeley. The votes for Vice-President
were even more varied, with eight Democrats
receiving votes.
When Congress met to count the Electoral
College votes, there was a motion to disallow the
three votes for Greeley on the basis that, in the
words of Representative George Hoar of
Massachusetts, a person “deceased before the vote
is cast” is not a “person within the meaning of the
Constitution.” Congressional Globe, 1873, 1285.
Although the Senate voted 44 to 19 to allow the
votes to stand, the House of Representatives voted

16
101 to 99 to disallow the votes and the motion to
disallow the votes passed. This represents the first
and only time in American history that an electoral
vote was discounted by Congress on the ground of
who the elector voted for, as opposed to some other
reason such as election fraud or corruption. What
is ironic is that the electors who exercised
independent judgment and voted for someone other
than their pledged candidate had their votes
counted while the three electors who voted
consistent with their pledges had their votes
discounted.
The other major debate about independent
electors occurred following the Election of 1968.
When the votes from the state of North Carolina
were read, it was announced that Richard Nixon
received twelve electoral votes and George Wallace
received one vote. Dr. Lloyd Bailey, Elector from
Rocky Mount, North Carolina, voted for Wallace,
ostensibly because Wallace won Dr. Bailey’s
congressional district.
Representative James
O’Hara, Democrat from Michigan, and Senator
Edmund Meese, Republican from Maine (and
future Attorney General), filed a written objection,
joined
by
an
additional
thirty-seven
Representatives and six Senators. Among the
objectors were future Republican President George
H.W. Bush and future Democratic Vice-President
Walter Mondale.
Speaking
in
favor
of
the
motion,
Representative James Wright, Democrat from
Texas and future Speaker of the House, stated:

17
The basic question is that of sovereignty.
Who, under the American system, is
sovereign? In whom does the ultimate
right and the power of decision reside?
Are the people sovereign? Do they have
the right to expect – indeed, to insist that
their clearly expressed wishes shall be
faithfully carried out by the college of
electors, that strangely anomalous and
almost anonymous appendage which the
Constitution
rather
awkwardly
interposed between them and their
chosen leaders? Or shall we determine
today that the people, in the final
analysis, have no such right at all? Shall
we declare that they have no authority
whatever to require that their votes be
faithfully reflected by their agents, the
electors – no right, no remedy, no
recourse and no protection against the
faithless elector who betrays their trust,
abuses his office disdains their wishes,
and cavalierly substitutes his will for
theirs?
Think what a dangerous
precedent that would be.
Congressional Record, Volume 115, Part 1, 146-47.
According to Representative Wright, the role of
electors is to perform a “perfunctory duty.” He
continued “The Electoral College is a creaky and
antiquated bit of machinery, a relic of the powdered
wig and snuffbox era. We have long since outgrown
it. Personally I think we should be done with it

18
entirely.” Congressional Record, Volume 115, Part
1, 147.
The first Representative to speak in favor of
counting the vote, Charles Jonas of North Carolina,
did so with “grave misgivings.” Congressional
Record, Volume 115, Part 1, 147. On the one hand,
he felt it circumvented the will of the voters of
North Carolina to allow Dr. Bailey, whose name did
not appear on the ballot and whose identity was
largely unknown, to vote for his preferred choice.
On the other hand, he could find no constitutional
provision or statute that required him to vote in
accordance with the election results.
In the
absence of such a provision, the vote must be
counted as cast. Many other congressmen made
the same point, arguing that the Constitution
allows electors to vote however they wish.
The House and Senate debated for two hours
on the question before taking a vote. In the end,
the objection was rejected by a vote of 228 to 170 in
the House and 58 to 33 in the Senate and the vote
for Wallace was counted.
In reading the
congressional debate, however, two points stand
out. First, is the bipartisan nature of the objections
to the electoral vote. Both prominent Republicans
and prominent Democrats voted to disallow Dr.
Bailey’s vote, despite the fact that reversing his
vote would result in an additional vote for the
Republican candidate, Richard Nixon.
Second, most Representatives and Senators
that voted to oppose the motion did so reluctantly.
Opposition to the motion was not based the belief

19
that Dr. Bailey’s decision was beneficial or good for
the electoral process, but based upon the belief that
the Constitution and its history have consistently
upheld the right of electors to vote independently
and Congress should not interfere with that
history.
Since the debate in 1969, electors have
continued to cast independent votes, doing so in the
elections of 1972, 1988, 2004, and 2016. The
independent elector in 1988, Margarette Leach,
switched her votes, voting for Lloyd Bentsen
instead of Michael Dukakis for President and
Dukakis instead of Bentsen for Vice-President,
saying at the time, “I wanted to call attention to the
fact that once somebody has been elected to the
Electoral College, you really don’t have any control
over them.” The Salina Journal, “It’s Official; Bush
Elected President,” December 20, 1988. The most
varied Electoral College results since the passage of
the Twelfth Amendment occurred during the
Election of 2016 when, in addition to Respondent
Michael Baca, seven independent electors voted for
five candidates.
Amicus declines to comment on what, if any,
changes or amendments should be made to the
Electoral College to correct its perceived
deficiencies. That is for the political processes to
work out. But under the current constitutional
framework set out in the plain text of Article II, §1
and the Twelfth Amendment, as well as the history
and practice of the Electoral College, once an
elector has been selected in the “manner as the
Legislature thereof may direct,” it is up to that

20
elector to “vote by ballot for President and VicePresident.” The attempt by Colorado to control the
vote of the electors “might be a noble endeavor . . .,
but the fact that a given law or procedure is
efficient, convenient, and useful will not save it if it
is contrary to the Constitution.” Arizona State
Legislature v. Arizona Independent Redistricting
Commission, 135 S.Ct. 2652, 2678, 192 L.Ed.2d 704
(2015)
(Chief
Justice
Roberts,
dissenting)
(commenting on the elections clause of Article 1,
§4), quoting INS v. Chadha, 462 U.S. 919, 103 S.Ct.
2764, 77 L.Ed.2d 317 (1983). This Court should
affirm the Tenth Circuit.
Conclusion
This Court should grant certiorari to the
second Question Presented and affirm the Tenth
Circuit.
Respectfully submitted,

Thomas E. Weaver
Thomas E. Weaver
PO Box 1056
Bremerton, WA 98337
(360)792-9345
tweaver@tomweaverlaw.com
*Counsel of Record
NOVEMBER 7, 2019

